No.

v.

t

.

:

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

DEC 0 1 2020
MARK ANDREW MORRIS

OFFICE OF THE CLERK

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS- SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

I

PETITION FOR WRIT OF CERTIORARI

MARK ANDREW MORRIS
(Your Name)
USP Marion- 4500 Prison Road

r

(Address)
Marion, IL 62959-9011
(City, State, Zip Code)

L
(Phone Number)

received
m 12 202'

QUESTION(S) PRESENTED
1. Did the United States Court of Appeals, 6th Circuit, use an improper and unduly burdensome
Certificate of Appealability (COA) standard which conflicts with this Court's precedent?
2. Did the United States Court of Appeals, 6th Circuit, wrongfully justify its denial of a COA on
the six issues presented based on an adjudication on the merits, instead of limiting its review to
a threshold inquiry into whether the underlying merits presented debatable issues or was
wrongfully decided.

TABLE OF AUTHORITIES CITED

CASES
Buck v. Davis, 580 U.S.,
137 S.Ct. 759
Giover v. United States, 531 U.S. 198 (2001)

PAGE NUMBER
6
9

Miiler-EI v, Cockrell, 537 U.S. 322 (2003)

6-7

Missouri v. Frye, 566 U.S. 134 (2012)

8

Lafler v. Cooper, 566 U.S. 156 (2012)

8

Strickland v. Washington, 466 U.S. 668 (1984)

7,9

United States v. Cronic, 466 U.S. 648 (1984)

7

Wiggins v. Smith, 539 U.S. 510
Williams v. Taylor, 529 U.S. 362 (2000)

9
7

Burt v. Uchtman, 422 F.3d 557 (7th Cir. 2005)
Smith v. United States, 348 F,3d 545 (6th Cir. 2003)
Tinsley v. Million, 399 F.3d 796 (6th Cir. 2005)

9
7
8

STATUTES AND RULES
28U.S.C. 2253 (c)(1)

6

The Sixth Amendment to U.S. Constitution

9

OTHER

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

■3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

10

INDEX TO APPENDICES

APPENDIX A United States Court Of Appeals- Sixth Circuit Order denying COA dated 8/31 /20.
APPENDIX B United States District Court- EDKY Judgment and Memorandum Opinion denying
Motion to Vacate or Set Aside and failing to issue COA.
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

LIST OF PARTIES

[ J All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix A
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 8/31/2020
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: ----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. The Fifth Amendment to the United States Constitution, which provides in pertinent part that "[n]o person ...
shall be deprived of life, liberty or property, without due process of law.” U S. CONST, amend. V.
2. The Eighth Amendment to the United States Constitution, which precludes the infliction of "cruel and unusual
punishments..." U.S. Constitution amend. VIII.
3. The Sixth Amendment to the United States Constitution which provides right to counsel: "In all criminal prosecutions,
the accused shall enjoy the right... to have the Assistance of Counsel for his defense." U.S. CONST, amend. VI.
4. 28 U.S.C. section 2255.
5. 28 U.S.C. section 2253(c)(2).

STATEMENT OF THE CASE
PRETRIAL PHASE
Mr. Morris was federally indicted on four charges: two counts of distribution of child
pornography using interstate and foreign commerce pursuant to 18 U.S.C. §2252(a)(2), one
count of receipt of child pornography using interstate and foreign commerce pursuant to 18
U.S.C. §2252(a)(2), and a single count of possession of child pornography that had been
transported using interstate and foreign commerce pursuant to 18 U.S.C. § 2252(a)(4)(B).
The United States obtained superseding indictment to add two counts of production of child
pornography which had been transmitted using interstate commerce pursuant to 18 U.S.C. §
2251(a) and to amend the production charges to having been produced with materials
transported in and affecting interstate or foreign commerce . Thereafter, the court denied
Defendant's Motion to Continue Trial on May 5, 2016 on the grounds that his counsel needed
more time to negotiate a potential plea agreement in response to an offer he had received
from the United States. However, on May 12th, the Court granted the United States’ Motion
to Continue and thereby rescheduled the trial to May 25, 2016.
THE TRIAL
The case proceeded to trial on May 25, 2016. In cross examination during the case in chief,
the United States witnessed conceded : (1) the computers in question were not password
protected, meaning another user could have accessed the Wi-Fi/IP address, (2) that
unsolicited images could have been downloaded on the computers due to malware, (3) other
members of the Morris household used the computers and peer to peer file sharing, (4)
another member of the household had downloaded pornographic images. At the conclusion
of the case in chief, Morris’ attorney argued the United States had failed to prove its case.
Based upon the advice of his attorney, Mr. Morris did not testify and presented no evidence in

defense.
On May 26, 2016 at 1:45 pm, the jury received the case for deliberation. It reached a
guilty verdict on all six counts by 2:40 pm.
THE SENTENCING
Mr. Morris appeared for sentencing on September 6, 2016. The Court sentenced
Mr. Morris to the maximum term on each count to run concurrent with each other as follows:
360 months on each of Counts 1ss and 2ss, 240 months on each of Counts 3ss, 4ss, 5ss,
120 months on Count 6ss; All Counts to run concurrently, for a total term of 360 Months.
POST TRIAL
Mr. Morris appealed his case arguing there was insufficient evidence to obtain his
convictions. The United States Court of Appeals, Sixth Circuit, Case No. 16-6396, affirmed
this court’s judgment on September 5, 2017. Mr. Morris filed a Motion to Vacate or Set Aside
his conviction based upon 28 U.S.C. 2255. The United States District Court, EDKY, denied
his motion and failed to issue a Certificate of Appealability (COA), entered on May 7, 2020.
Thereafter, Mr. Morris filed an application for COA with the United States Court of
Appeals, 6th Circuit, which was denied on August 31,2020.

REASON FOR GRANTING THE PETITION
THIS COURT SHOULD GRANT CERTIORARI TO DETERMINE WHETHER
THE SIXTH CIRCUIT FAILED TO FOLLOW THE STANDARD FORA
CERTIFICATE OF APPEALABILITY UNDER MILLER-EL V. COCKRELL
When the EDKY denied Morris a COA on all of his claims, he sought to seek a COA
from a circuit justice or judge. (28 U.S.C. 2253(c)(1). Morris applied for a COA based on:
(1) the failure to adequately review the Indictment/charge against him, (2) the failure to review
the discovery, (3) the neglect to reasonably inform and advise him on the proposed guilty
plea agreement and the negotiations that followed, (4) deficient trial preparation; (5) failure to
investigate potential mental issues of his client, and (6) agreeing to a short continuance of
the trial after the United States had filed a superseding indictment changing its theory in two
counts to production using materials that had been shipped or transported in interstate
commerce. In denying each and every ground raised by Morris, the court of appeals
misapplied the proper COA standard by deciding on the merits .
I. COA & STRICKLAND STANDARDS
The COA analysis “is not coextensive with a merits analysis and should be decided
without full consideration of the factual or legal bases adduced in support of the claims.” Buck
v. Davis. 580 US

137 S.Ct. 759, 773 (2017). “ At the COA stage, the only question is

whether the applicant has shown that jurists of reason could disagree with the district court's
resolution of his constitutional claims or that jurists could conclude the issues presented are
adequate to serve encouragement to proceed further.” Id. (quoting Miller-El, 537 US. 322,
327 (2003). A claim can be debatable even though every jurist of reason might agree, after
the COA has been granted and the case has received full consideration, that the petitioner will
not prevail. Miller-El, 537 at 338. The circuit court cannot “sidestep' that inquiry “by first
deciding the merits of an appeal” before determining whether a COA should issue, because

“justifying the denial of a COA based on the adjudication of the actual merits ... is in essence
deciding an appeal without jurisdiction.” Miller-El, 537 U.S. at 336.
The standards for evaluating ineffective assistance of counsel are set forth in
Strickland v. Washington. 466 U.S. 668 (1984) wherein the Court used a two part test: (1)
counsel’s performance was deficient, (2) prejudice. Deficient is defined as representation that
fell below an objective standard of reasonableness, id at 688. Prejudice means a reasonably
probability that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different. Id at 694. A reasonable probability of prejudice is one that is sufficient to
“undermine confidence” in the outcome. Williams v. Taylor. 529 U.S. 362, 391 (2000) (quoting
Strickland at 466 U.S. at 694). The right to counsel’s effective assistance of counsel applies to
all stages of the case. Strickland at 668.
A. FAILURE TO REVIEW INDICTIMENT/CHARGES
Mr. Morris argued that his trial counsel merely provided him with a copy of the indict­
ments but did not review the elements of the offense, possible sentences, and defenses. The
court of appeals agreed Smith v. United States, requires counsel to do the aforementioned,
but concluded Morris did not show prejudice. Id. 348 F.3d 545, 553 (6th Cir. 2003.
B. FAILURE TO REVIEW DISCOVERY WITH CLIENT
Morris claimed that trial counsel provided him with a copy of the discovery but did not
review the evidence with his client, and as a resulted he was prejudiced. The court of appeals
dismissed this claim by citing United States v. Cronic. 466 U.S. 648, 659-60 (1984), in support
of the failure to review discovery does not result in presumed prejudice and that Morris had
failed to show any prejudice.
C. NEGLECT TO ADEQUATELY INFORM AND ADVISE CLIENT
ON PROPOSED GUILTY PLEA AGREEMENT/NEGOTIATIONS
Morris argued his lawyer simply handed him the plea agreement in the holdover prior

to a hearing but failed to review the agreement with his client- only asking whether he had
read it and had any questions. Under Missouri v. Frye. 566 134, 145 (2012), counsel must
inform a client of the offer and under Lafler v. Cooper, 566 U.S. 156, 168 (2012) provide
effective assistance to help clients decide whether or not to accept. Yet counsel was uncertain
about a probable sentence under the plea offer, and emailed the AUSA with questions about
sentencing guideline calculations that went unanswered. In fact, counsel failed to follow up
on the recommendation that he contact the U.S. Probation Office to seek its opinion on
guideline calculations. Nonetheless, the court of appeals found that Mr. Morris did not show
prejudice because the plea agreement contained only “recommended guidelines.”
D. FAILURE TO ADEQUATELY PREPARE FOR TRIAL
Mr. Morris claimed a complete lack of preparation for trial by his lawyer. The
“preparation” included short meetings lasting only minutes each time while he was in the
holding area at the courthouse without meaningful conversation with his client about
defenses, potential witnesses, and rebuttal evidence. Moreover, defense counsel failed to
contact any witnesses to interview them prior to their trial testimony, did not prepare for the
anticipated computer/intemet evidence or request funds for a computer expert to assist him
with evidence evaluation or to testify for the defense. Morris asserted that counsel spent less
than 1 hour of time with him to prepare for a two day, six count jury trial. The court of appeals
found that Morris did not show there was a reasonable probability that the result of his trail
would have be different but for his lawyer's inadequate preparation, relying on. Tinsley v.
Million. 399 F.3d 796, 810 (6th Cir. 2005).
E. FAILURE TO INVESTIGATE MENTAL ISSUES
Counsel was aware that Mr. Morris underwent a mental evaluation at the state court
level but failed to investigate and never had any consequential discussion of this issue with
his client. The duty to investigate includes reviewing defendant’s family background, life

history, and mental capacity. ]d at 534-35; Burt v. Uchtman. 422 F.3d 557 (7th Cir. 2005)
(mental capacity to enter a guilty plea). Counsel did not ask for a re-evaluation even though
the prior assessment reached its conclusion without the benefit of psychiatrist and
psychologist records from Bluegrass Comprehensive Care and Caritas. These records were
referenced in the PSR, including the Defendant/Movant’s Diagnosis of Schizoaffective
Disorder and prescription of Prozac,

The 6th Amendment compels defense counsel to

conduct a reasonable investigation mental capacity. Wiggins v. Smith, 539 U.S. 510, 521-23
(2003). The court of appeals dismissed Mr. Morris' argument by citing United States v.
Dubrule, 822 F.3d 866, 875-76 (6th Cir. 1996) and concluding that mental illness does not
necessarily mean incompetency and Glover v. United States. 531 U.S. 198, 203 (2001) to
show absence of prejudice.
F. CONTINUANCE
The United States sought a second superseding indictment just five days before trial to
correct defects with the first two courts of the indictment and to change its theory in these
counts from production with distribution to production using materials that had been shipped
or transported in interstate commerce. The AUSA admitted that he would have difficulty
proving distribution as it was currently charged and was a risk under Rule 29 if these counts
were not changed Counsel agreed to an eight day continuance and during dialogue stated
his unavailability any earlier due to long scheduled, significant hearing in another matter one
of those days.

Morris argued his lawyer should have requested a longer continuance to

investigate and prepare a defense for this theory change, especially in light of significant
hearings in other cases.

See Wiggins v. Smith, 539 U.S. 510, 521-23 (2002); Strickland v.

Washington. 466 U.S. 668 (1984). The court of appeals repeated its earlier conclusions that
Mr. Morris failed to show any prejudice because he could not demonstrate a longer
continuance would have added anything to his defense.

r

l

CONCLUSION

Based on the arguments presented above,

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: /[/puftn

-2^

pi. Op\CJ

